No. 20-299

 

 

IN THE

Supreme Court of the United States

MILLIMAN, INC.,
Petitioner,
Vv.

JAMES J. DONELON, COMMISSIONER OF INSURANCE
FOR THE STATE OF LOUISIANA,
IN HIs CAPACITY AS REHABILITATOR OF
LOUISIANA HEALTH COOPERATIVE, INC.,
Respondent.

[Nature Of The Proceeding And The
Name Of The Court From Which
The Action Is Brought]

MOTION FOR LEAVE TO FILE BRIEF OF AMICUS
CURIAE THE AMERICAN INSTITUTE OF
CERTIFIED PUBLIC ACCOUNTANTS IN SUPPORT
OF PETITIONER AND BRIEF OF AMICUS CURIAE
THE AMERICAN INSTITUTE OF
CERTIFIED PUBLIC ACCOUNTANTS
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

3,859 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 291 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 8, 2020.

 

Wilson-Epes Printing Co., Inc.
